No.

IN THE
SUPREME COURT OF THE UNITED STATES

RUSSELL ARRINGTON

— PETITIONER

(Your Name)
VS.
WELLS FARGO BANK, N.A.

— RESPONDENT(S)

PROOF OF SERVICE
TA,-----------------------------------------------------------------RUSSELL ARRINGTON

, do swear or declare that on this date,
, 20 21 , as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
MAY 22nd

The names and addresses of those served are as follows:
WELLS FARGO CENTER
N93SIXTH & MARQUETTE
MINNEAPOLIS, MN 55479

I declare under penalty of perjury that the foregoing is true and correct.
Executed on MAY 22nd

,20 21

(Signature)

IN THE SUPREME COURT OF THE UNITED STATES
WELLS FARGO BANK, NA

)
)

V.

RUSSELL ARRINGTON

Case No:

)

PETITION FOR ISSUANCE OF

)

WRIT OF CERTIORARE

)

CERTIFICATE OF SERVICE

I, Arrington Al El, Russell, Free man and living man, nameholder and Authorized
Representative for ARRINGTON, RUSSELL LAMONT corp. sole d/b/a RUSSELL
LAMONT ARRINGTON™©, certify that I have this day served the UNITED STATES
SUPREME COURT with this Petition For Issuance of Writ of Certiorare:

By UPS mailing to:

Petition For Issuance of Writ of Certiorare
Page 15 of 18

SUPREME COURT OF THE UNITED STATES
CLERK’S OFFICE
1 FIRST STREET, NE
WASHINGTON, D. C, 20543

Delivery thereon to ensure Delivery: Dated this
,2021.

Autograph:

AD
UCC 1-303.6 UCC1-308 UCC1-301 UCC1-107

STATE OF PENNSYLVANIA)

COUNTY OF DELAWARE)

Russell Arrington A1 El Registered Owner of
ARRINGTON RUSSELL LAMONT corp. sole
c/o [428] Church lane
Yeadon [Pennsylvania] state Republic
Near; [19050]
Petition For Issuance of Writ of Certiorate
Page 16 of 18

Affidavit of Notary Presentment Certification of Mailing

State of Pennsylvania

)

)SS
County of Delaware

)

1 am over 18 years of agejand not a party to the within action; my business address is:

2

^>

RA

The UPS Store
Notary Services
c/o 1005 Pontiac Road
Drexel Hill, PA [19026]

On the 22nd Day of May, 20211 notarized one copy of die following:
Petition For Issuance of Writ of Certiorare Constitutionally challenging all Pennsylvania
State Statutes Where: Security from searches and seizures and Protected Constitutional
Rights under General Law. ‘The people shall be secure in their persons, houses, papers and
possessions from unreasonable searches and seizures, and no warrant to search any place or to
seize any person or things shall issue without describing them as nearly as may be, nor without
probable cause, supported by oath or affirmation subscribed to by the affiant. Petition For
Issuance of Writ of Certiorare Constitutionally challenging all Pennsylvania State Statutes
Where: The General Assembly shall not pass any local or special law: Nor shall the General
Assembly indirectly enact such special or local law by the partial repeal of a general law; but
laws repealing local or special acts may be passed; Nor shall any law be passed granting powers
or privileges in any case where the granting of such powers and privileges shall have been
provided for by the general law, nor where the courts have jurisdiction to grant the same or give
the relief asked for. Petition For Issuance of Writ of Certiorare contests Respondent’s
assertion of legal standing to file for Ejectment and a dismissal of Respondent’s action of
Ejectment.

a total of two hundred and thirty-two (232) pages mailed herewith (not including this Affidavit of
Notary Presentment Certification of Mailing by electronic filing to the SUPREME COURT OF
THE UNITED STATES as follows:

Petition For Issuance of Writ of Certiorare
Page 17 of 18

To: Supreme Court of the United States
Clerk’s Office
1 First Street, NE
Washington, D. C, 20543

Cc: Wells Fargo Bank, N.A.
Wells Fargo Center
N93 Sixth & Marquette
Minneapolis, MN 55479

I affirm under penalties of perjury under the laws of the State of Pennsylvania that the above is
true, correct, and complete, and that this Affidavit of Service was executed May 22nd, 2021, at
Philadelphia, Pennsylvania.

k

^ertfPS Store ■ ^ZjjY\eva

6lore sUt

Notary Public
Notary Public in and for said State ofPennsylvania
My Commission Expires
CStJf f)~j f fj&7 Z

Commonwealth ofPennsylvania- Notary Seal
ZUNERAQURESHt- Notary Public
Delaware County
' My GbmrnlMionExptrea; *>*><>7.
Comhi^ion htuhtwr 1326739 ....

*

Petition For Issuance of Writ of Certiorare
Page 18 of 18

>

